         U.S. ENVIRONMENTAL PROTECTION AGENCY
         OFFICE OF INSPECTOR GENERAL



                                        Catalyst for Improving the Environment


Evaluation Report




       ENERGY STAR Label Needs to
       Assure Superior Energy
       Conservation Performance
       A Summary Report

       Report No. 11-P-0010

       October 28, 2010
Report Contributors:                              Laurie Adams
                                                  Daniel Carroll
                                                  Jerri Dorsey
                                                  Jill Ferguson
                                                  Jeffrey Harris




Abbreviations

DOE          U.S. Department of Energy
EPA          U.S. Environmental Protection Agency
GAO          U.S. Government Accountability Office
GHG          Greenhouse gas
MMTCE        Million metric tons of carbon equivalent
MOU          Memorandum of Understanding
OIG          Office of Inspector General


Cover photos: Examples of ENERGY STAR product types.
              (Photos courtesy U.S. Department of Energy)
                       U.S. Environmental Protection Agency                                              11-P-0010
                                                                                                   October 28, 2010
                       Office of Inspector General


                       At a Glance
                                                                          Catalyst for Improving the Environment

Why We Did This Review
                                 ENERGY STAR Label Needs to Assure
Since 2006, the U.S.             Superior Energy Conservation Performance
Environmental Protection
Agency (EPA) Office of            What We Found
Inspector General has
conducted three evaluations      EPA’s implementation of the ENERGY STAR program has become inconsistent
of selected aspects of the       with the program’s authorized purpose: to achieve environmental benefits by
ENERGY STAR program.             identifying and promoting energy-efficient products and practices that meet the
This report summarizes past      highest energy conservation standards. We believe the ENERGY STAR program
findings that remain relevant    has sought to maximize the number of qualified products available at the expense
and identifies design and        of identifying products and practices that maximize energy efficiency.
management challenges that
present risks to the program’s   We previously found that EPA could not assure that the purchase of ENERGY
integrity as a means of          STAR products and adoption of ENERGY STAR practices actually deliver the
greenhouse gas avoidance and     energy or greenhouse gas emission savings that EPA reports annually, or that
as a credible tool to promote    consumers are purchasing the most energy-efficient products on the market. We
energy efficiency and            found that the design and execution of the ENERGY STAR program ensured
consumer savings.                neither the integrity of the label nor the achievement of greenhouse gas emission
                                 savings. Products historically qualified for the ENERGY STAR label based on
Background                       manufacturer self-certification rather than EPA testing.
ENERGY STAR is a                 In 2009, EPA and DOE signed a new memorandum of understanding to enhance
voluntary program designed to    and expand federal programs that advance energy efficiency. These enhancements
help businesses and              include adding new product categories to the program, instituting new measures
individuals enhance their        to ensure that ENERGY STAR specifications are tightened as necessary to
energy efficiency. In 1996,      consistently represent top performing products, and enhancing the qualification
EPA partnered with the U.S.      and verification testing of ENERGY STAR products. Because these changes have
Department of Energy (DOE)       not yet occurred, their effectiveness remains to be determined.
to promote the ENERGY
STAR label and broaden the        What We Recommend
product coverage.
                                 We recommend that the Assistant Administrator for Air and Radiation develop a
For further information,
contact our Office of            strategic vision and program design that assures that the ENERGY STAR label
Congressional, Public Affairs    represents superior energy conservation performance. We also recommend that
and Management at                the Assistant Administrator for Air and Radiation develop a set of goals and valid
(202) 566-2391.                  and reliable measures that can accurately inform shareholders and the public of
To view the full report,
                                 the benefits of the program. EPA disagreed with many of our conclusions, but
click on the following link:     concurred with the proposed recommendations. Based on the Agency’s comments
www.epa.gov/oig/reports/2011/    to our draft report, we changed our first recommendation to assure that the
20101028-11-P-0010.pdf           Agency’s strategic vision and design complies with the intent of the Energy
                                 Policy Act of 2005.
                      UNITED STATES ENVIRONMENTAL PROTECTION AGENCY
                                   WASHINGTON, D.C. 20460


                                                                             THE INSPECTOR GENERAL



                                         October 28, 2010

MEMORANDUM

SUBJECT:               ENERGY STAR Label Needs to Assure Superior
                       Energy Conservation Performance
                       Report No. 11-P-0010


FROM:                  Arthur A. Elkins, Jr. Mark Bialek for
                       Inspector General

TO:                    Gina McCarthy
                       Assistant Administrator for Air and Radiation


This is our report on the subject evaluation conducted by the Office of Inspector General (OIG)
of the U.S. Environmental Protection Agency (EPA). This report contains findings that describe
the problems the OIG has identified and corrective actions the OIG recommends. This report
represents the opinion of the OIG and does not necessarily represent the final EPA position.
Final determinations on matters in this report will be made by EPA managers in accordance with
established resolution procedures.

The estimated cost of this report – calculated by multiplying the project’s staff days by the
applicable daily full cost billing rates in effect at the time – is $194,733.

Action Required

In accordance with EPA Manual 2750, you are required to provide a written response to this
report within 90 calendar days. Your response will be posted on the OIG’s public Website, along
with our comments on your response. Your response should be provided in an Adobe PDF file
that complies with the accessibility requirements of section 508 of the Rehabilitation Act of
1973, as amended. If your response contains data that you do not want to be released to the
public, you should identify the data for redaction. You should include a corrective actions plan
for agreed-upon actions, including milestone dates. We have no objections to the further release
of this report to the public. This report will be available at http://www.epa.gov/oig.

If you or your staff have any questions, please contact Wade Najjum at 202-566-0832 or
najjum.wade@epa.gov, or Jeffrey Harris at 202-566-0831 or harris.jeffrey@epa.gov.
ENERGY STAR Label Needs to Assure Superior                                                                                              11-P-0010
Energy Conservation Performance




                                         Table of Contents
Purpose .............................................................................................................................          1

ENERGY STAR’s Role in Promoting Energy Efficiency ................................................                                             2

EPA Plans to Improve Management Controls to Ensure ENERGY STAR Results ....                                                                    5

         Management Controls for Setting Product Performance Specifications
            Have Been Lacking .............................................................................................                    5
         Testing of ENERGY STAR Products by EPA Has Been Limited ...............................                                               6
         EPA Lacks Assurance that Reported GHG Emissions Avoided Are Valid.................                                                    7

ENERGY STAR Does Not Indentify and Promote Products and Practices that
Meet the Highest Energy Conservation Standards........................................................                                        10

         ENERGY STAR Specifications Have Not Necessarily Identified
            Only Top Performers ............................................................................................                  10
         Non-ENERGY STAR Product Performance Similar to ENERGY STAR
            Product Performance ..........................................................................................                    11
         Conclusions ...............................................................................................................          12
         Recommendations .....................................................................................................                12
         Agency Comments and OIG Evaluation ....................................................................                              12

Status of Recommendations and Potential Monetary Benefits....................................                                                 14



Appendices
     A        Summaries of Prior EPA OIG, DOE OIG, and
              U.S. Government Accountability Office Reports.............................................                                     15

     B        Status of Corrective Actions for Prior EPA OIG Reports ...............................                                         18

     C        Scope and Methodology....................................................................................                      22

     D        Agency Comments (9/13/10) and OIG Evaluation ...........................................                                       23

     E        Agency Comments (10/4/10) and OIG Evaluation ...........................................                                       28

     F        Distribution .........................................................................................................         32
                                                                                                      11-P-0010




Purpose
             Since 2006, the U.S. Environmental Protection Agency (EPA) Office of Inspector
             General (OIG) has conducted three evaluations of selected aspects of the ENERGY
             STAR program. These reports are:

                    ENERGY STAR Program Can Strengthen Controls Protecting the Integrity of
                     the Label, Report No. 2007-P-00028, August 1, 2007.
                     http://www.epa.gov/oig/reports/2007/20070801-2007-P-00028.pdf

                    Improvements Needed to Validate Reported ENERGY STAR Benefits,
                     Report No. 09-P-0061, December 17, 2008.
                     http://www.epa.gov/oig/reports/2009/20081217-09-P-0061.pdf

                    ENERGY STAR Program Integrity Can Be Enhanced Through Expanded
                     Product Testing, Report No. 10-P-0040, November 30, 2009.
                     http://www.epa.gov/oig/reports/2010/20091130-10-P-0040.pdf

             These evaluations assessed elements of the program’s design and management that
             are essential for assuring that the program delivers what its label promises.
             Appendix A provides summaries of these three reports.

             Beginning with the first report, EPA has taken steps to address the OIG’s
             recommendations. Appendix B notes the status of corrective actions taken by the
             Agency in response to the prior three OIG reports.

             This report will summarize past findings that remain relevant, as well as identify
             design and management challenges that present risks to the program’s integrity as a
             source of greenhouse gas (GHG) 1 avoidance and as a credible tool to promote energy
             efficiency and consumer savings. Appendix C provides details on the scope and
             methodology for our current review.




1
 Gases that trap heat in the atmosphere are often called greenhouse gases. Some GHGs, such as carbon dioxide,
occur naturally and are emitted into the atmosphere through natural processes and human activities. Other GHGs are
created and emitted solely through human activities. Many, but not all, human-activity sources of GHG emissions
are expected to rise in the future. The increase in GHG emissions may be mitigated through the use of newer,
cleaner technologies and other measures. Additionally, everyday choices about such things as commuting, housing,
electricity use, and recycling can influence the amount of GHGs being emitted.


                                                        1
                                                                                                     11-P-0010




ENERGY STAR’s Role in Promoting Energy Efficiency
            In 1992, EPA’s Office of Air and Radiation established the ENERGY STAR Product
            Labeling Program as an innovative approach to environmental protection. Congress
            formally authorized the ENERGY STAR program in the Energy Policy Act of 2005. 2
            ENERGY STAR is a voluntary program designed to help businesses and individuals
            protect the environment through superior energy efficiency. By identifying energy-
            efficient products and practices, the ENERGY STAR label is intended to help the
            public save money and protect the environment.

            According to EPA, the ENERGY STAR program has helped drive investment in
            energy-efficient products, technologies, and practices that surpass existing standards
            and building codes. The program uses an assortment of strategies to “catalyze market
            transformation.” The Agency further asserts that consumers, homeowners, and
            businesses rely on the ENERGY STAR program as a trusted source of unbiased
            information to help lower their energy bills while fighting global climate change.

            The ENERGY STAR program was first introduced to recognize and promote energy-
            efficient computers. It has since grown to cover many consumer products and
            services. In 1996, EPA partnered with the U.S. Department of Energy (DOE) to
            promote the ENERGY STAR label and broaden the product coverage. 3 By 2008, the
            program included more than 40,000 ENERGY STAR-qualified product models
            across 60 product categories, which were produced by more than 2,400
            manufacturers.

            The ENERGY STAR program has four primary program sectors:

                    Products
                    Commercial
                    Industrial
                    Residential

            Table 1 provides descriptions for each sector and also notes the GHG emissions that
            were avoided for each sector in 2008.




2
  Public Law 109-58, August 8, 2005; Subtitle C—Energy Efficient Products, Sec. 131.
3
  A memorandum of cooperation was signed jointly on May 29, 1996. The memorandum described each agency’s
responsibilities as they relate to using and overseeing the ENERGY STAR logo. On September 29, 2009, DOE and
EPA signed a memorandum of understanding to better define the roles of each agency and to outline new provisions
to advance energy efficiency.


                                                       2
                                                                                                        11-P-0010


               Table 1: ENERGY STAR Program Sector Descriptions
                                                                                                 2008 GHG
                 ENERGY STAR                                                                     Emissions
                                                  Program Sector Description
                 Program Sector                                                                   Avoided
                                                                                                 (MMTCE)*

                                       Designed to promote energy-efficient products for
                 Product               purchase by consumers. Features the ENERGY                    19.4
                                       STAR label.

                                       Designed to promote superior corporate energy
                                       management approaches and provide partners
                 Commercial            with guidance on assessing current energy use                 18.5
                                       and developing plans that will lead to energy
                                       reductions.
                                       Designed to help industrial companies develop
                                       robust energy programs that create the necessary
                 Industrial                                                                          6.6
                                       infrastructure for cost-effective GHG
                                       management.
                                       Designed to help make residential homes more
                                       energy efficient through existing home
                 Residential                                                                         0.5
                                       improvements and use of ENERGY STAR-
                                       qualified products in existing homes.
               Source: OIG review of program materials.

                    * Million metric tons of carbon equivalent avoided as reported in the ENERGY STAR and
                    Other Climate Protection Partnerships 2008 Annual Report.

               In 2008, the ENERGY STAR program reported avoiding a total of 45 MMTCE of
               GHG emissions. According to EPA, the program helped prevent GHG emissions
               equivalent to those from 29 million vehicles, while saving Americans nearly
               $18 billion on their energy bills. These reported benefits are more than double those
               claimed in 2000.

               The ENERGY STAR program is one of an array of federal partnerships and programs
               designed to promote opportunities to reduce GHG emissions. In 2002, President Bush
               announced a goal of reducing America’s GHG intensity 4 18 percent by 2012.
               Subsequently, in 2010, President Obama updated the goal to reduce the Federal
               Government’s GHG emissions by 28 percent by 2020. Several departments and
               agencies, including the U.S. Department of Transportation, DOE, and EPA, are
               working to reduce GHG emissions by improving energy efficiency, conserving fossil
               fuels, recovering methane, and sequestering carbon.

               EPA plays a significant role in the Federal Government’s agenda to reduce GHG
               emissions. In September 2009, the EPA Administrator finalized the mandatory
               regulation requiring the nation’s largest sources of GHGs to report their GHG
               emissions. This new rule is expected to allow EPA to track approximately 85 percent
               of total U.S. emissions while only requiring a small percentage of facilities to report

4
    GHG intensity is the ratio of greenhouse gas emissions to economic output.


                                                           3
                                                                                                    11-P-0010


            data. In December 2009, the Administrator finalized the “endangerment finding,”
            which determined that GHGs contribute to the endangerment of public health and
            welfare. According to its strategic plan, EPA plans to reduce GHG intensity by
            enhancing partnerships with businesses and other sectors.

            EPA has several programs to address GHG reductions. The total contribution of all
            EPA programs is expected to satisfy 70 percent of the President’s GHG intensity
            reduction goal. While regulatory efforts are underway, the core of EPA’s climate
            change efforts are voluntary government/industry programs such as the ENERGY
            STAR program. 5 According to the savings reported by the Agency, the ENERGY
            STAR program is EPA’s most significant GHG avoidance program and the largest
            single contributor to the U.S. national strategy.

            As illustrated in Figure 1, EPA’s annual reported GHG reductions have increased
            steadily since 2002, with the ENERGY STAR program consistently accounting for
            over 50 percent of EPA’s reported reductions.


               Figure 1: EPA GHG Emission Reductions




               Source: OIG analysis of ENERGY STAR program annual reports.




5
 In 1992, the United States signed and Congress ratified the United Nations Framework Convention on Climate
Change Treaty in Rio de Janeiro. The Rio Treaty requires the United States to implement programs to reduce GHG
emissions. The United States decided to achieve this goal through voluntary programs.


                                                       4
                                                                                                      11-P-0010




EPA Plans to Improve Management Controls to
Ensure ENERGY STAR Results
             We previously found that EPA could not assure that the purchase of ENERGY STAR
             products and adoption of ENERGY STAR practices actually deliver the energy or
             GHG emission savings EPA reports annually, 6 or that consumers are purchasing the
             most energy-efficient products on the market. We found that the design and execution
             of the ENERGY STAR program ensures neither the integrity of the label nor the
             achievement of GHG emission savings. Products historically qualified for the
             ENERGY STAR label based on manufacturer self-certification rather than EPA
             testing. 7 On September 30, 2009, EPA and DOE signed a new memorandum of
             understanding (MOU) to enhance and expand federal programs that advance energy
             efficiency. These planned enhancements include adding new product categories to the
             program, instituting new measures to ensure that ENERGY STAR specifications are
             tightened as necessary to consistently represent top performing products, and
             enhancing the qualification and verification testing of ENERGY STAR products.
             Because these changes have not yet occurred, their effectiveness remains to be
             determined.

Management Controls for Setting Product Performance Specifications
Have Been Lacking
             Traditionally, EPA set an initial performance specification for a product category and
             then monitored the product in the marketplace to determine when it was appropriate
             to begin revising each specification. The Agency has followed six key principles
             when establishing consumer product energy efficiency specifications:

                 1. Significant energy savings can be realized on a national basis.
                 2. Product performance can be maintained or enhanced with increased energy
                    efficiency.
                 3. Purchasers will recover their investment in increased energy efficiency within
                    a reasonable time.
                 4. Energy efficiency can be achieved with several technology options, at least
                    one of which is nonproprietary.
                 5. Product energy consumption and performance can be measured and verified
                    with testing.
                 6. Labeling would effectively differentiate products and be visible for
                    purchasers.


6
  EPA annually reports net savings on energy bills and GHG emissions avoided as reportable benefits of the
program.
7
  Companies self-certify that their products meet ENERGY STAR specifications. This process involves the
manufacturer testing its product models per ENERGY STAR specifications and reporting the results to EPA.


                                                        5
                                                                                                          11-P-0010


             Before EPA would set or revise a product specification, it would request input from
             manufacturers and other stakeholders. This input was used to determine the
             availability of new or advanced technologies and the level of interest in producing
             products under a new revised specification level, and to notify manufacturers of a
             pending revision. According to ENERGY STAR staff, this voluntary collaboration
             was an essential part of the process. We found that the criteria for initiating and
             revising specifications were unclear and were not documented. Because the Agency
             did not document the results of the specification-setting process, it is unclear how
             individual decisions regarding specifications revisions are made.

             According to EPA, several actions resulting from the MOU will address these historic
             shortcomings. 8 The MOU also allows for more frequent revisions to existing
             ENERGY STAR specifications so that the label will continue to highlight the most
             energy-efficient products among manufacturers that volunteer to participate. EPA will
             conduct revisions on a preset timeline, 9 and specifications will be set so that the
             ENERGY STAR logo is applied consistently with established program principles.

Testing of ENERGY STAR Products by EPA Has Been Limited
             Throughout the history of ENERGY STAR, qualified products have largely been
             untested by EPA. EPA relied on manufacturer self-certifications. EPA conducted only
             minimal verification testing and assumed that in a competitive market, manufacturers
             would test each other’s products and report failures to EPA. However, the Agency
             could not provide any examples as evidence that self-policing occurred. 10 We found
             that EPA had not conducted any verification testing for the first 10 years of the
             program. When verification testing began, it accounted for only a small component of
             the program’s activities and budget. For example, in Fiscal Year 2006, the ENERGY
             STAR Product Labeling Program had an estimated $18.2 million budget, of which
             $70,000 was allocated for verification testing. In its first 5 years of verification
             testing, EPA averaged only two sets of product verification tests per year. When our
             2007 report was issued, 44,000 qualified product models existed within the qualified
             ENERGY STAR product categories. At the end of 2006, EPA had only conducted
             verification testing on 160 product models in 9 out of 48 product categories managed
             by EPA.




8
  According to the May 7, 2010, DOE/EPA Partnership Work Plan, 21 actions are underway, 7 of which will be
completed in 2010.
9
  For product categories with longer-lived product model lifecycles (e.g., heating and cooling equipment and home
appliances), specifications will be reviewed at least every 3 years or when the market share for ENERGY STAR-
qualified products reaches about 35 percent. For product categories with rapidly evolving product models (e.g.,
consumer electronics and office equipment), specifications will be updated about every 2 years.
10
   In response to a March 2010 U.S. Government Accountability Office report critical of ENERGY STAR’s lack of
third-party testing, EPA continued to reiterate this position. EPA stated that for 18 years, manufacturers’ market
incentive to test competitors’ products and report violations to EPA has been an effective quality control measure to
ensure that consumers are getting products that cut energy costs and GHG emissions.


                                                          6
                                                                                                          11-P-0010


             The recent MOU between DOE and EPA includes new testing and verification
             procedures. According to the MOU, verification of ENERGY STAR-qualifying
             products will be enhanced by the following:

                     All products will be required to be tested in an accredited laboratory and
                      qualifying product information will be submitted to the government before the
                      product can be qualified as ENERGY STAR.

                     Enhanced off-the-shelf product testing across all ENERGY STAR-covered
                      product categories will be conducted by a combination of EPA/DOE testing,
                      manufacturer funded EPA/DOE administered testing, or other third-party
                      testing.

             EPA and DOE also plan to pursue product qualification prior to labeling, laboratory
             qualification, and comprehensive verification testing to ensure that ENERGY STAR
             remains a trusted symbol for environmental protection. According to EPA, the
             transition to independent testing for products not subject to a third-party certification
             program will be complete by November 30, 2010. Furthermore, all product categories
             will be subject to independent qualification testing by the end of 2010. 11

EPA Lacks Assurance that Reported GHG Emissions Avoided Are
Valid
             Based on control weaknesses identified in our previous evaluations, we conclude that
             EPA cannot be certain that its reported savings claims are valid or supportable, and
             that large amounts of GHG emissions are in fact being avoided. In October 2009, the
             DOE OIG reported similar findings, stating that these deficiencies could reduce
             consumer confidence in the integrity of the ENERGY STAR label. 12

             A key assumption of the ENERGY STAR program is that the purchase and use of
             ENERGY STAR products and practices will save energy and lower GHG emissions.
             In 2008, EPA reported that ENERGY STAR benefits resulted in Americans saving
             about $18 billion on their utility bills, avoiding the need for about 190 billion kilowatt
             hours of electricity, and avoiding 45 million metric tons of GHG emissions. Reported
             ENERGY STAR benefits represented over 50 percent of EPA’s total GHG emissions
             avoided in 2006 and 2007; ENERGY STAR benefits are a major metric in EPA’s
             efforts to reduce these emissions. Therefore, the accuracy of the program’s reported
             ENERGY STAR savings is important in assessing EPA’s overall efforts to reduce
             GHG emissions.

             EPA computes the energy savings for each qualified ENERGY STAR product with a
             computer model. EPA used the formula shown in Figure 2 to calculate the annual
11
   EPA will be requiring products to be tested for qualification in an EPA-recognized, accredited laboratory, either
through participation in a third-party certification program or through manufacturer-arranged testing in an accredited
laboratory, and the resulting data must be shared with the ENERGY STAR program.
12
   DOE OIG, The Department’s Management of the ENERGY STAR Program, DOE/IG-0827, October 14, 2009.


                                                          7
                                                                                               11-P-0010


            energy savings benefits and GHG reductions resulting from the ENERGY STAR
            program.
            Figure 2: ENERGY STAR Energy Savings Calculation


                              Non-ENERGY STAR product energy consumption
                                               minus
                            ENERGY STAR product minimum energy consumption
                                           multiplied by
                                     ENERGY STAR product sales
                                              equals
                                ENERGY STAR Products’ Energy Savings

            Source: OIG analysis of ENERGY STAR program material.

            A key number in the computation is the annual ENERGY STAR-qualified product
            shipment total by product category. 13 In an earlier review, we reported that the
            ENERGY STAR program’s reported savings claims for products were inaccurate and
            that the reported annual savings were unreliable. We identified several deficiencies
            with the shipment data used in calculating benefits. Deficiencies included the lack of
            a data quality review, reliance on estimates, forecasting and unverified third-party
            reporting, and the potential inclusion of exported items. EPA also included savings
            from products that are no longer ENERGY STAR qualified in the benefits calculation
            formula. 14

            Secondly, we determined through product testing that there may not be a distinction
            between the minimum energy consumption of ENERGY STAR products and the
            actual product energy consumption of non-ENERGY STAR products. The ENERGY
            STAR label is advertised as representing superior energy efficiency. However, our
            test of ENERGY STAR and non-ENERGY STAR products disclosed that some non-
            ENERGY STAR products were more efficient. The ENERGY STAR specification
            was a minimum standard that 98 percent of qualified tested products met and many
            products exceeded. 15 Additionally, many nonqualified products we tested also met or
            exceeded the specification.

            The performance results of the tested ENERGY STAR and non-ENERGY STAR
            products call into question the assumptions used to calculate energy savings and GHG
            reductions attributed to the program. If non-ENERGY STAR products are found to be
            at least as energy efficient as qualified ENERGY STAR products, then the energy and
            GHG savings reported by the Agency cannot be valid.

13
   The ENERGY STAR program uses the term “shipments” interchangeably with “sales.” When a qualified
ENERGY STAR manufacturer ships its ENERGY STAR-qualified product, the shipment is considered sold for
annual savings calculation purposes.
14
   This calculation is known as the market transformation benefit calculation.
15
   We tested 120 ENERGY STAR-qualified products and 118, or 98 percent, met program requirements for
compliance.


                                                    8
                                                                                                      11-P-0010




             Furthermore, the methodology used to compute the ENERGY STAR savings for the
             commercial sector was based on unverified assumptions and used formulas rather
             than actual program data. Based on reported 2006 program savings, the commercial
             component of the program was the second-largest contributor to carbon emissions
             avoided and nearly equaled the total benefits of the products component. 16 EPA used
             a formula created, operated, and maintained by its contractor to compute the annual
             commercial sector savings. In this formula, the contractor (1) calculates all
             commercial sector gains in energy efficiency, (2) subtracts amounts from utility and
             State programs, and (3) concludes that the remaining energy savings can be attributed
             to the ENERGY STAR program.

             According to the Agency’s response to the draft report, the Agency is enhancing the
             way in which it accounts for program savings, including removing the market
             transformation effect, improving consistency, and reassessing the baseline of core
             products. Furthermore, according to EPA, a peer review of the program allocation
             methodology that EPA uses to estimate the program benefits in the commercial
             buildings market is currently underway.




16
  We excluded the residential and industrial program sectors from our review. The commercial and products sectors
combined encompass 81.6 percent of the 2006 reported carbon emissions avoided.


                                                        9
                                                                                      11-P-0010




ENERGY STAR Does Not Identify and Promote
Products and Practices that Meet the Highest
Energy Conservation Standards
       The Energy Policy Act of 2005 established ENERGY STAR as a voluntary program
       to identify and promote energy-efficient products and buildings. The goals of the
       program are to reduce energy consumption, improve energy security, and reduce
       pollution. These goals were to be achieved through voluntary labeling of, or other
       forms of communication about, products and buildings that meet the highest energy
       conservation standards. In contrast to the expectations set out in this Act, the
       ENERGY STAR program does not seek to achieve benefits by promoting products
       that meet the highest energy conservation standards. EPA’s emphasis on achieving
       the broadest number of ENERGY STAR transactions rather than identifying and
       promoting products with the highest efficiencies has led to results inconsistent with
       the intent of the Act. We have found historical instances in which the vast majority of
       products in the marketplace are ENERGY STAR qualified and instances in which
       ENERGY STAR qualified products were outperformed by some non-ENERGY
       STAR qualified products.

ENERGY STAR Specifications Have Not Necessarily Identified Only
Top Performers
       In the past, the ENERGY STAR label was intended to identify the top performers in
       energy efficiency. Agency documents state that specifications were designed to
       typically capture the top 25 percent of energy performing models on the market.
       However, we found that historically, specifications in some product categories were
       not revised in a timely manner, resulting in the majority of products in the
       marketplace being ENERGY STAR qualified. For example, prior to specification
       revisions, 98 percent of all computers, 95 percent of all monitors, 90 percent of all fax
       machines, and 99 percent of all mailing machines were ENERGY STAR qualified. In
       those product categories, the ENERGY STAR label did not identify superior energy
       efficiency over other products in the marketplace. Rather, it represented the lowest
       common standard of energy efficiency. If the majority of products in a certain
       category bear the ENERGY STAR label, ENERGY STAR becomes an inclusive
       program. In such instances, the integrity of the label is diminished and credibility
       with consumers may decline. The inclusion of the majority of products in a category
       also raises questions about whether energy is actually saved if most products meet the
       ENERGY STAR specification.

       The media have reported such concerns. In October 2008, Consumer Reports opined
       that the qualifying standards for ENERGY STAR products were too lax. It found that
       92 percent of all dishwashers qualified as ENERGY STAR products. A February 23,
       2010, Washington Post article questioned both the reliability of the program label and


                                            10
                                                                                  11-P-0010


      whether less-than-efficient appliances are making the cut. As reported in the
      Washington Post, in the past the ENERGY STAR label was “rather exclusive,” but
      now it is difficult to find appliances in some categories that are not ENERGY STAR
      certified. As stated in the Consumer Reports article, “It makes the EnergyStar worth a
      little less to the consumer if it’s something everybody’s got.”

      EPA has stated that, “. . . the ENERGY STAR program achieves significant results by
      delivering high efficiency to a large segment of consumers rather than targeting the
      most efficient products which would appeal to a much more limited set of
      purchasers.” The inclusive design and implementation of the program was reinforced
      when EPA stated in its response to the draft report on September 13, 2010, “Based on
      expert advice and experience in terms of what makes a consumer label effective, the
      ENERGY STAR products program has not and does not seek to achieve
      environmental benefits by promoting products that meet the highest energy
      conservation standards. Rather, the program operates under the principle that the
      greatest environmental impact can be achieved by affecting the broadest number of
      transactions, namely the purchases of the average consumer, who will choose
      products that are good for the environment as long as they don’t cost more or involve
      a sacrifice in performance.”

      We see this as a departure from the intent of the Energy Policy Act of 2005, which
      authorized EPA to “. . . identify and promote energy-efficient products and buildings
      in order to reduce energy consumption, improve energy security, and reduce pollution
      through voluntary labeling of, or other forms of communication about, products and
      buildings that meet the highest energy conservation standards” (emphasis added).

      Competing visions of the ENERGY STAR program within EPA were evident in its
      October 4, 2010, comments that stated, “The goal of the ENERGY STAR products
      program is to identify and promote energy-efficient products in order to reduce
      energy consumption, improve energy security, and reduce pollution through
      voluntary labeling of products that meet the highest energy conservation standards as
      authorized under the Energy Policy Act of 2005 and the Clean Air Act Section
      103(g).” The OIG sees these conflicting statements as evidence of a need for strategic
      vision and program design for an exclusive program that assures that the ENERGY
      STAR label represents superior energy conservation performance to the consumer.

Non-ENERGY STAR Product Performance Similar to ENERGY STAR
Product Performance
      According to EPA, the ENERGY STAR label enables consumers to easily identify
      energy-efficient products in the market. However, manufacturer participation in the
      program is voluntary, and the ENERGY STAR specification is a minimum standard.
      In 2009, we tested ENERGY STAR and non-ENERGY STAR products and found
      that products not labeled as ENERGY STAR met or exceeded the ENERGY STAR
      performance level. These results call into question the ability of the program to
      identify products with superior energy efficiency. If the program cannot identify


                                          11
                                                                                     11-P-0010


       products with superior energy efficiency, it cannot assure purchasers that they will
       recover their investment within a reasonable period of time in increased energy
       efficiency through utility bill savings. Consequently, the ENERGY STAR
       designation only identifies products from voluntary partners that self-report that the
       products meet the minimum standard; it does not necessarily identify the best-
       performing products in the marketplace.

       The level of product performance affects the ENERGY STAR label’s image as a
       trusted national symbol for environmental protection through superior energy
       efficiency. If non-ENERGY STAR-labeled products consume the same or less energy
       than ENERGY STAR-qualified products, the value of the label is diminished.
       Therefore, EPA cannot currently be certain ENERGY STAR products are a good
       choice for the consumers looking for energy efficiency or cost effectiveness.
       Moreover, the basis for energy savings or GHG reductions claims is questionable.

Conclusions

       We believe the ENERGY STAR program has sought to maximize the number of
       transactions of qualified products at the expense of identifying products and practices
       that maximize energy efficiency. We believe this is because the ENERGY STAR
       program’s design has become inconsistent with the intended outcomes. Although the
       program delivers the message to the consumer that the ENERGY STAR label
       designates cost-effective, energy-efficient products, this may not be the case. The
       program is currently taking steps to enhance program management. However, the
       integrity of the label remains at risk because it does not necessarily identify and
       promote the most energy-efficient products on the market. Agency management
       should assure that the program complies with the intent of Energy Policy Act of 2005
       and redesign the program accordingly.

Recommendations

       We recommend that the Assistant Administrator for Air and Radiation:

          1. Develop a strategic vision and program design that assures that the ENERGY
             STAR label represents superior energy conservation performance.

          2. Develop a set of goals and valid and reliable measures that can accurately
             inform shareholders and the public of the benefits of the program.

Agency Comments and OIG Evaluation

          The Agency agreed with our draft report’s recommendations, but did not concur
          with the summary findings. While the Agency concurred with our
          recommendations, it is not clear how EPA’s ENERGY STAR program as
          described meets the intent of the Energy Policy Act of 2005. The Act sets out that


                                            12
                                                                         11-P-0010


products in the ENERGY STAR program should meet “the highest energy
conservation standards,” which should result in a more exclusive program. Based
on the Agency’s comments to the draft report, we changed our first
recommendation to assure that the Agency’s strategic vision and design complies
with the intent of the Act.

Subsequent to the exit meeting, wherein we discussed the OIG’s conclusion that
ENERGY STAR’s vision and design should be more exclusive, the Agency
provided a revised second response.

In its initial response, the Agency stated,

       . . . the ENERGY STAR products program has not and does not
       seek to achieve environmental benefits by promoting products that
       meet the highest energy conservation standards. Rather, the
       program operates under the principle that the greatest
       environmental impact can be achieved by affecting the broadest
       number of transactions. . . .

However, the Agency’s second response claimed that the program had an
exclusive goal:

       . . . to identify and promote energy-efficient products in order to
       reduce energy consumption, improve energy security, and reduce
       pollution through voluntary labeling of products that meet the
       highest energy conservation standards. . . .

These divergent responses, along with the recent program shortcomings
summarized in the report, reinforce the OIG’s concern that the program direction
is inconsistent.

The planned programmatic improvements described in the MOU should be
implemented in conjunction with an exclusive strategic vision and design. Both
are needed to assure consumers that labeled products have superior energy
conservation performance. Moreover, the program’s contribution to GHG
emissions avoidance continues to require a defined set of goals and measures to
accurately report results to the public.

The Agency’s two formal written responses, as well as our evaluation of both sets
of the Agency’s comments, are presented in Appendices D and E.




                                  13
                                                                                                                                          11-P-0010



                                 Status of Recommendations and
                                   Potential Monetary Benefits

                                                                                                                                POTENTIAL MONETARY
                                                   RECOMMENDATIONS                                                               BENEFITS (in $000s)

                                                                                                                    Planned
    Rec.    Page                                                                                                   Completion   Claimed    Agreed-To
    No.      No.                         Subject                         Status1          Action Official             Date      Amount      Amount

     1       12     Develop a strategic vision and program design that      O        Assistant Administrator for
                    assures that the ENERGY STAR label represents                        Air and Radiation
                    superior energy conservation performance.

     2       12     Develop a set of goals and valid and reliable           O        Assistant Administrator for
                    measures that can accurately inform shareholders                     Air and Radiation
                    and the public of the benefits of the program.




1    O = recommendation is open with agreed-to corrective actions pending
     C = recommendation is closed with all agreed-to actions completed
     U = recommendation is undecided with resolution efforts in progress




                                                                                14
                                                                                             11-P-0010


                                                                                        Appendix A

        Summaries of Prior EPA OIG, DOE OIG, and
       U.S. Government Accountability Office Reports
Below are summaries of the three EPA OIG reports we published as part of a series of
evaluations of EPA’s ENERGY STAR program. Appendix B lists all the recommendations and
the status of each. Also included here is a summary of recent reports by the DOE OIG and the
U.S. Government Accountability Office (GAO).

EPA OIG, ENERGY STAR Program Can Strengthen Controls Protecting the Integrity of the
Label, Report No. 2007-P-00028, August 1, 2007.
http://www.epa.gov/oig/reports/2007/20070801-2007-P-00028.pdf

To ensure the efficiency and effectiveness of the ENERGY STAR program and the integrity of
its label, EPA established several processes. These processes include product specification
setting and revision, product self-certification, product verification testing, and label utilization
monitoring. We reviewed these processes and found improvements could be made that could
better assure the integrity of the ENERGY STAR label for the consumer of home and office
products.

We found the criteria for revising specifications were unclear and not documented. It was not
evident when or what factors would trigger a specification revision. Furthermore, EPA did not
have reasonable assurance that the self-certification process is effective. EPA relied on some
alternative verification mechanisms, but lacked any quality assurance or review of these reported
results. The Agency’s verification testing also lacked a clear documented methodology
governing products selected for verification tests and does not test for statistically valid results.
Consequently, product efficiency and energy savings reported by manufacturers were, for the
most part, unverified by EPA review.

We found little oversight in using the ENERGY STAR label in retail stores, which is commonly
the purchase point for the consumer. EPA could not provide documentation related to follow-up
actions taken, final results for all retail store assessments, or the resolution status of label
inconsistencies. We also found that manufacturers could label and sell products as ENERGY
STAR qualified prior to submitting test results to the Agency. Using the label on products that do
not meet ENERGY STAR requirements may weaken the value of the label and negatively
impact the ENERGY STAR program.




                                                  15
                                                                                          11-P-0010


EPA OIG, Improvements Needed to Validate Reported ENERGY STAR Benefits,
Report No. 09-P-0061, December 17, 2008.
http://www.epa.gov/oig/reports/2009/20081217-09-P-0061.pdf

EPA reported that ENERGY STAR benefits represented one-half of the Agency’s total GHG
emissions avoided in 2006. ENERGY STAR benefits are a major component of efforts reducing
such emissions. The accuracy of the program’s reported energy savings is important in
monitoring United States efforts to reduce GHG emissions.

We found the ENERGY STAR program’s reported savings claims were inaccurate and the
reported annual savings were unreliable. We identified deficiencies with the shipment data and
the process used in calculating benefits. Deficiencies included the lack of a quality review of the
data collected; reliance on estimates, forecasting, and unverified third-party reporting; and the
potential inclusion of exported items. Also, EPA included savings for one DOE product that
DOE also claimed. Additionally, sales of formerly qualified products are used to determine
ENERGY STAR’s market transformation benefits, but we found this benefit was computed
inconsistently. Also, the methodology used to compute the ENERGY STAR commercial sector
benefits uses unverified assumptions.

EPA OIG, ENERGY STAR Program Integrity Can Be Enhanced Through Expanded Product
Testing, Report No. 10-P-0040, November 30, 2009.
http://www.epa.gov/oig/reports/2010/20091130-10-P-0040.pdf

This evaluation was initiated to independently test ENERGY STAR products to determine
whether their energy-efficient performance complied with the ENERGY STAR program’s
required specifications. Almost all of the ENERGY STAR products in our test sample met, and
in most cases exceeded, the program’s performance standards. However, selected non-ENERGY
STAR products performed comparably to, and in some cases better than, ENERGY STAR
products. That level of product performance affects the ENERGY STAR label’s image as a
trusted national symbol for environmental protection through superior energy efficiency.

In addition, the performance results of ENERGY STAR and non-ENERGY STAR products call
into question the assumptions used to calculate energy savings and GHG reductions attributed to
the program. Without an enhanced testing program, including the testing of non-ENERGY
STAR products, EPA cannot be certain ENERGY STAR products are the more energy-efficient
and cost-effective choice for consumers.




                                                16
                                                                                      11-P-0010


DOE OIG, The Department’s Management of the ENERGY STAR Program, DOE/IG-0827,
October 2009.
http://www.ig.energy.gov/documents/IG-0827-508.pdf

The October 2009 DOE OIG report identified many of the same findings relative to DOE’s
administration of the program that prior EPA OIG reports identified. The DOE OIG reported that
DOE officials had not:

      developed a formal quality assurance program to help ensure that product specifications
       were adhered to,
      effectively monitored the use of the ENERGY STAR label to ensure that only qualifying
       products were labeled as compliant, and
      formalized procedures for establishing and revising product specifications and for
       documenting decisions regarding those specifications.

The DOE OIG reported that these deficiencies could reduce consumer confidence in the integrity
of the ENERGY STAR label. Such loss could also reduce reported energy savings, increase
consumer risk, and diminish the value of the recent infusion of $300 million for ENERGY STAR
rebates under the American Recovery and Reinvestment Act of 2009.

GAO, Covert Testing Shows the Energy Star Program Certification Process Is Vulnerable to
Fraud and Abuse, GAO-10-470, March 5, 2010.
http://www.gao.gov/new.items/d10470.pdf

GAO’s investigation shows that ENERGY STAR is for the most part a self-certification program
vulnerable to fraud and abuse. GAO was able to obtain ENERGY STAR certifications for
15 bogus products, including a gas-powered alarm clock. GAO reported that certification
controls were ineffective primarily because ENERGY STAR does not verify energy-savings data
reported by manufacturers, as was reported in the previous EPA OIG reports. In addition, two of
the bogus ENERGY STAR firms developed by GAO received requests from real companies to
purchase products because these bogus firms and products were listed as ENERGY STAR
partners. GAO reported that this clearly shows the heavy reliance of American consumers on the
ENERGY STAR brand and the program. Companies use the ENERGY STAR certification to
market their products, and consumers buy products relying on the certification by the
government of reduced energy consumption and costs. Furthermore, the program is promoted
through tax credits and appliance rebates, and federal agencies are required to purchase certain
ENERGY STAR-certified products.




                                              17
                                                                                                                11-P-0010


                                                                                                          Appendix B

                                Status of Corrective Actions for
                                    Prior EPA OIG Reports

   Report                    Recommendation                                  Status of Corrective Action 17
2007-P-00028        3-1: Clarify the decision criteria and    EPA agreed to provide interim direction to program
                    document the process for revising an      administration staff that product selection should take
                    ENERGY STAR specification,                specification setting and revising into account and that
                    including identifying circumstances       selected products should be tested within 6-12 months of the
                    when a specification revision would       specification effective date by October 2007. Further, EPA
                    not be revised, despite a high market     agreed to document a broader Compliance Audit Program,
                    share of qualified products.              including criteria for establishing testing priorities and a
                                                              protocol for addressing new products and products with
                                                              specification revisions by March 2008.

                                                              The September 2009 MOU signed addresses the intent of this
                                                              recommendation.
                    4-1: Establish a formal Quality           According to EPA, it agreed to review its product testing and
                    Assurance Plan for product and            verification efforts with the intent to establish a formal,
                    verification testing to provide a         comprehensive Compliance Audit Program. The recent MOU
                    reasonable assurance results              between DOE and EPA included new enhancements to the
                    represent the products available and      testing and verification procedures. According to the MOU,
                    the certification of others may be        verification of ENERGY STAR-qualifying products will be
                    relied upon.                              enhanced by the following:
                                                                   All products will be required to be tested in an
                                                                      accredited laboratory and qualifying product
                                                                      information be submitted to the government before the
                                                                      product can be qualified as ENERGY STAR.
                                                                   Enhanced “off-the-shelf” product testing across all
                                                                      ENERGY STAR covered product categories will be
                                                                      conducted by a combination of EPA/DOE testing,
                                                                      manufacturer funded EPA/DOE administrated testing,
                                                                      or other third party testing.

                                                              EPA and DOE also plan to pursue qualification prior to
                                                              labeling, laboratory qualification, and comprehensive
                                                              verification testing to ensure that ENERGY STAR remains a
                                                              trusted symbol for environmental protection. According to
                                                              EPA, the transition to independent testing for products not
                                                              subject to a third-party certification program will be complete
                                                              by November 30, 2010. All product categories will be subject
                                                              to independent qualification testing by the end of 2010.




17
     As part of this review, we did not verify the status of the corrective actions for all previous OIG reports.


                                                             18
                                                                                                        11-P-0010



   Report               Recommendation                                  Status of Corrective Action 17
2007-P-00028   4-2: Coordinate verification testing     EPA agreed to provide interim direction to program
(continued)    with product specification setting and   administration staff that product selection should take
               revision processes to ensure products    specification setting and revising into account and that
               are selected in a timely and relevant    selected products should be tested within 6-12 months of the
               basis.                                   specification effective date by October 2007. Further, EPA
                                                        agreed to document a broader Compliance Audit Program,
                                                        including criteria for establishing testing priorities and a
                                                        protocol for addressing new products and products with
                                                        specification revisions by March 2008. The recent DOE and
                                                        EPA MOU included new provisions for the product
                                                        specification process. Specifications will be set so that the
                                                        ENERGY STAR label is applied consistently with established
                                                        program principles. According to the MOU, specifications
                                                        will be set to identify the 25 percent most efficient models
                                                        within a product class. The MOU also allows for more
                                                        frequent revisions to existing ENERGY STAR specifications
                                                        so that the label will highlight top energy-efficient products
                                                        among manufacturers that volunteer to participate.
               5-1: Establish standards to ensure       According to EPA, it instituted a formal process for
               label use inconsistencies found          documenting and addressing possible label infractions found
               during the retail store level            during retail-store-level assessments, to include regular
               assessments are systematically           management status reviews and final reports.
               recorded, appropriate actions are
               taken, and infractions are tracked
               until resolved or otherwise
               completed.
               5-2: Establish standing operating        On September 28, 2007, the ENERGY STAR Product
               procedures for contract oversight to     Labeling Branch Chief issued a memorandum to staff
               assure that all contractually required   reiterating standard operating procedures for contractor
               work is complete and meets the           oversight.
               contract requirements.




                                                        19
                                                                                                   11-P-0010



   Report            Recommendation                                Status of Corrective Action 17
09-P-0061   2-1: To improve the validity of          According to the Agency, as of March 26, 2009, EPA has
            reported annual savings for the          implemented the following:
            ENERGY STAR program, establish                Instituted additional checks on submitted data to
            and perform quality controls to                  ensure completeness and validity.
            ensure that:                                  Instituted systematic quality assurance check on all
               Data in benefits calculations,               data entered into the unit shipment database to
                  whether from partners or third             ensure accuracy of entered data and resulting sums.
                  parties, are timely, complete,          Instituted documentation of all communications with
                  valid and documented.                      individual partners to clarify submissions.
               The contractor and third party            Developed and made available through Website a set
                  associations receiving the                 of frequently asked questions designed to reinforce
                  manufacturer data submittal                data submittal requirements, including “U.S. only”
                  forms reconcile submittals in a            and “no estimates” to improve quality of data
                  a manner that ensures the total            submitted.
                  annual shipments reported by            Met with the relevant trade associations prior to the
                  product category are accurate              beginning of 2008 shipping data collection effort to
                  and reflect actual numbers (not            reinforce the purpose of the collection and the
                  estimates) and are for domestic            importance of submitting high-quality data.
                  shipments only.
               Agency officials improve
                  contractor oversight by
                  obtaining actual support for
                  annual savings in a manner that
                  demonstrates that the numbers
                  are valid and can be reconciled.
               Data in benefits calculations
                  attributable to DOE products
                  should be clearly identified and
                  developed in consultation with
                  DOE to avoid redundancy.
            3-1: Develop and consistently apply      EPA agreed to seek the advice of outside experts through a
            a data-driven methodology to             formal peer review process on its overall approach to
            compute the market transformation        evaluating benefits from the labeling program, including the
            effect of all product categories and     methodology for assessing the market transformation effect.
            report the benefits separately from      EPA agreed to make changes to the methodology based on the
            ENERGY STAR-qualified products.          recommendations received, applying them consistently where
                                                     the market transformation effect applies, and update the
                                                     model by July 31, 2010.
            4-1: Validate the formula                EPA agreed to secure additional outside expert review of the
            (methodology) used for calculating       methodology being used to estimate the benefits of the
            the benefits of the ENERGY STAR          ENERGY STAR program in the commercial sector. The
            commercial program in accordance         review will assure that assumptions, data sources, and
            with EPA Quality Manual for              methods used to estimate the benefits are reasonable and
            Environmental Programs CIO 2105-         supported.
            P-01-O, to ensure that it accurately
            reflects the impacts of EPA actions.     A peer review is currently being conducted (according to the
                                                     EPA guidance about how to conduct peer reviews) of the
                                                     program allocation methodology that EPA uses to estimate
                                                     the program benefits in the commercial buildings market. The
                                                     peer reviewed is estimated to be completed by summer 2010.




                                                     20
                                                                                                    11-P-0010



   Report            Recommendation                                Status of Corrective Action 17
10-P-0040   2-1: Verify estimated energy savings   EPA presented to stakeholders plans for and a proposed
            and greenhouse gas reduction           framework for a market-based performance program on
            calculations using a market-based      December 2, 2009, that leverages and expands the
            performance testing program that       infrastructure of certification programs that test both qualified
            includes testing non-ENERGY            and nonqualified products. According to the Agency’s
            STAR products.                         response to the draft report, the Agency is in the process of
                                                   enhancing its approach to accounting for program savings
                                                   including removing the market transformation effect,
                                                   improving consistency and reassessing the baseline of core
                                                   products.
            2-2: Revise the ENERGY STAR            According to EPA, beginning in December 2009, EPA began
            Website to include the established     amending the ENERGY STAR Qualified Product lists and the
            standard alongside qualifying          Find-a-Product search tool to address the three main parts of
            product performance data and to        the OIG’s request: adding key energy-efficiency performance
            provide a summary listing of the       data, summarizing the ENERGY STAR energy-efficiency
            highest performers.                    criteria, and sorting qualified product information based on
                                                   performance. This was expected to be completed by spring
                                                   2010.




                                                   21
                                                                                              11-P-0010


                                                                                            Appendix C

                                  Scope and Methodology
We conducted this performance evaluation in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the evaluation to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our objectives. We believe that the evidence obtained provides a reasonable basis for
our findings and conclusions based upon our objectives. We conducted our field work for all
three previous evaluations and this current summary work from September 2006 through August
2010.

Our review included an examination of applicable laws and regulations as well as Agency
guidance. We reviewed those internal controls that were relevant to our objectives. We reviewed
ENERGY STAR annual reports, Agency guidance documents, and the EPA-DOE MOU. We
reviewed planning documents, including logic models. We also reviewed relevant reports by
GAO, Lawrence Berkley National Laboratory, the Consortium for Energy Efficiency, and
current media reports on the program. We met with Agency staff and contractors. We reviewed
the methodologies governing the savings-benefit calculations for the commercial and products
program sectors. 18 Additionally, for the products sector, we reviewed documentation in support
of the 2006 reported savings benefits.

We also reviewed the processes in place to ensure the efficiency and effectiveness of the
ENERGY STAR program and the integrity of its label. These processes include product
specification setting and revision, product self-certification, product verification testing, and
label utilization monitoring.

Additionally, we tested a sample of both ENERGY STAR- and non-ENERGY STAR-qualified
products. From December 2008 through February 2009, we selected 20 different ENERGY
STAR-qualified products for testing from each of 3 product categories. Two identical models of
each product category were purchased for a total of 40 ENERGY STAR-qualified products per
category, 120 products in all. We also tested the performance of some non-ENERGY STAR
products. We purchased 10 non-ENERGY STAR products (2 each of 5 models) from the same
3 product categories for a total of 30 non-ENERGY STAR products. These products underwent
the same testing as our sample of ENERGY STAR products, and the results were compared with
ENERGY STAR specifications.

We integrated the results of all our prior ENERGY STAR reports to provide this overall
assessment of the effectiveness of EPA’s oversight and management of the ENERGY STAR
program and the controls in place to ensure the overall integrity of the ENERGY STAR label.




18
     The residential and industrial program sectors were excluded from our second review.


                                                          22
                                                                                         11-P-0010


                                                                                     Appendix D


      Agency Comments (9/13/10) and OIG Evaluation
   The initial response from the Assistant Administrator was received on September 13, 2010.
MEMORANDUM

SUBJECT:       Response to Evaluation Report: ENERGY STAR Needs to Define Its Primary
               Goal and Consumer Expectations – A Summary Report

FROM:          Gina McCarthy
               Assistant Administrator

TO:            Jeffrey Harris, Director
               Cross Media Issues, Office of Program Evaluation

Thank you for the opportunity to respond to the Evaluation Report: ENERGY STAR Needs to
Define Its Primary Goal and Consumer Expectations – A Summary Report (Summary Report).
We appreciate and share your interest in making the ENERGY STAR program as effective as
possible. While we are not in a position to concur with the report’s findings, as outlined below,
we concur with the proposed recommendations in the spirit of our ongoing commitment to
greater transparency and clarity around how the ENERGY STAR program operates.

The ENERGY STAR Program Has a Clearly Defined Goal and Set of Operating Principles

The Summary Report demonstrates a misunderstanding of the purpose of the ENERGY STAR
program. Based on expert advice and experience in terms of what makes a consumer label
effective, the ENERGY STAR products program has not and does not seek to achieve
environmental benefits by promoting products that meet the highest energy conservation
standards. Rather, the program operates under the principle that the greatest environmental
impact can be achieved by affecting the broadest number of transactions, namely the purchases
of the average consumer, who will choose products that are good for the environment as long as
they don’t cost more or involve a sacrifice in performance. Consistent with this principle, the
ENERGY STAR program achieves significant results by delivering higher efficiency products to
a large segment of consumers rather than targeting only (?) the most efficient products, which
would appeal to a much more limited set of purchasers and likely result in less aggregate
improvement in energy efficiency.

 OIG Response: The ENERGY STAR program, as described above in the Agency’s response,
 does not meet the intent of the Energy Policy Act of 2005. The Act sets out that products in the
 ENERGY STAR program should meet “the highest energy conservation standards” – an
 exclusive program. As noted above, the program operates by emphasis on achieving the
 broadest number of ENERGY STAR transactions rather than identifying and promoting
 products with the highest efficiencies. We believe this emphasis by the program has led to
 results that are inconsistent with the intent of the Act.


                                                23
                                                                                        11-P-0010


This goal, to achieve significant greenhouse gas savings by balancing energy efficiency with
other consumer expectations, drives decisions about where to set energy efficiency requirements.
Taking into account considerations related to consumer expectations, ENERGY STAR
requirements are generally established to reflect the performance of the top 25 percent of models
in a product category when the requirements go into effect. A growing market share of products
meeting those requirements simply means that more consumers, as well as the environment, have
benefitted from the use of more efficient products.

 OIG Response: Another potential consequence of “a growing market share meeting those
 requirements” is the corresponding growth in program metrics – greenhouse gas emissions
 avoided. We noted in a previous report that the integrity of these benefits become questionable
 when the market share of qualified products range is at a high percentage.

Maximizing the number of voluntary business partners and qualified products is not a
consideration in our decision making process.

 OIG Response: We believe this statement is inconsistent with the Agency’s previous statement
 that the greatest environmental impact can be achieved by affecting the broadest number of
 transactions, namely the largest number of purchases by the average consumer, who will choose
 products that are good for the environment as long as they do not cost more or sacrifice
 performance.

Demonstrated Commitment by Senior Officials at EPA and the Department of Energy to
Continued ENERGY STAR Program Effectiveness

On September 30, 2009, EPA and the Department of Energy (DOE) signed a new Memorandum
of Understanding (MOU) to enhance and expand federal programs that advance energy
efficiency. This new EPA/DOE partnership defines roles and responsibilities in a way that
capitalizes on the strengths of each agency and outlines a set of key improvements that will build
the value of the ENERGY STAR Program. These improvements include adding new product
categories to the program, instituting new measures to ensure that ENERGY STAR
specifications are tightened as necessary to consistently represent top performing products, and
enhancing the qualification and verification testing of ENERGY STAR products. Through a
DOE pilot program, government testing of ENERGY STAR qualified products has also stepped
up. In addition, we are developing a new program to promote the top tier of products within
certain categories.

 OIG Response: Over the series of OIG evaluations of the ENERGY STAR program, the OIG
 has issued several recommendations intended to strengthen management controls to protect the
 integrity of the ENERGY STAR label, as well as improve and enhance the ENERGY STAR
 program. Beginning with the first report, EPA has taken steps to address the OIG’s
 recommendations. As highlighted in the body of the report and in Appendix B, the plans
 outlined in the MOU address many of our previously issued recommendations. However, we
 cannot make any assessments regarding the value or effectiveness of the planned enhancements
 because they have not been fully implemented.




                                                24
                                                                                        11-P-0010


Significant Enhancements to the ENERGY STAR Product Qualification and Verification
Process Have Been Finalized

Despite recent investigations, the Inspector General’s Offices at EPA and DOE and the
Government Accountability Office have found no evidence of consumer fraud relating to the
quality or performance of ENERGY STAR qualified products. EPA and the Department of
Energy have extensive procedures in place today to prevent and uncover fraud and abuse,
including a broad infrastructure of controls, audits and other measures to ensure that the
ENERGY STAR name and logo are applied properly and consistently in the marketplace.

In 2010, EPA has made dramatic changes to the way products will be qualified as part of the
ENERGY STAR Program going forward.

          In March, EPA instituted a policy across all 60 product categories that products may
           no longer be labeled by manufacturers until qualifying product information, including
           lab test reports, is submitted and approved by EPA. In addition, the Agency
           suspended the automated qualification process previously in place for certain product
           categories and restricted access to the ENERGY STAR certification mark to partners
           until after EPA approves a product for qualification.
          On June 30, EPA finalized the requirements accreditation bodies and laboratories
           must meet in order to receive EPA recognition for purposes of ENERGY STAR
           product testing.
          On August 23, EPA finalized the requirements certification bodies must meet to be
           recognized by the Agency as a third-party certifier of ENERGY STAR qualified
           product performance.
          EPA is currently refining the eligibility criteria and partner commitments across more
           than 60 categories to officially impose third-party certification for all products
           effective December 30.

 OIG Response: The bulleted actions are responsive to some of the OIG’s findings; however,
 the Agency did not address other key aspects of our report. The Agency did not provide
 adequate information on how EPA plans to enhance its approach to accounting for program
 savings, including the calculation of GHG emissions saved. Based on control weaknesses
 identified in a previous evaluation, we concluded that EPA cannot be certain that it’s reported
 savings claims are valid or supportable, and that large amounts of GHG emissions are in fact
 being avoided. This uncertainty remains a potential program deficiency. The Agency has not
 provided specifics as to how these new proposed enhancements will correct weaknesses
 previously noted.

Recommendations and Corrective Actions

Recommendation 1: Develop a strategic vision that articulates whether the ENERGY STAR
label represents superior energy conservation performance or a balance of voluntary partner
interests and non-energy efficiency performance features.




                                                25
                                                                                        11-P-0010


Corrective Action Plan
The September 30, 2009 MOU between EPA and DOE reflects a mutually agreed upon strategic
vision for the ENERGY STAR Products Program. Namely:
“Program Design. The ENERGY STAR label will identify energy efficient products that offer
meaningful energy savings (at an individual and/or national level) over those products typically
purchased.

      Specifications will be established which overlay the consumer perspective and the need
       to consistently identify top performing products.
      Specifications will be set to recognize products that are cost-effective from the purchaser
       standpoint; offer at least equivalent functionality and features as standard products; and
       are proven and broadly available. Cost-effectiveness in terms of payback periods will be
       defined on a case-by-case basis, taking into account both the expected useful life of the
       product and the general desirability of shorter payback periods, but will in general be 3-5
       years.
      To identify top performing products, ENERGY STAR specifications will be set to
       identify approximately the top 25% most efficient of models within a product class under
       the ENERGY STAR specification at the time that specification becomes effective, with
       consideration of expected improvements in product efficiency and market penetration
       trends of those products that will take place between establishing a specification and the
       specification becoming effective.”
This vision was subsequently integrated into the Enhanced Program Plan for ENERGY STAR
Products early December, 2009 as the first important step in advancing the partnership between
EPA/DOE and program stakeholders and in engaging with interested parties in a discussion of
the key program enhancements outlined in the MOU.

As noted above, one of the ENERGY STAR program enhancements referenced in the new
EPA/DOE MOU is the addition of a top tier program nested within ENERGY STAR. The launch
of this program, which is currently under development, presents an opportunity for EPA to
clarify its strategic vision for the ENERGY STAR product label and how that relates to the new
program.

                   Milestone                                          Date
Program Development Phase 1: Market                                 Completed
research and data collection
Program Development Phase 2: Program                                Completed
Design Option Development
Program Development Phase 3: Market                              September 2010
Testing of Design Options
Program Development Phase 4: Final Report                        November 2010
and Recommendations
Program Description/Materials Development                        December 2010
(including refined articulation of strategic
vision for ENERGY STAR label)



                                               26
                                                                                     11-P-0010


Recommendation 2: Develop a set of goals and valid and reliable measures that can accurately
inform shareholders and the public of the benefits of the program.

Corrective Action Plan
Consistent with recommendations made through a recent peer review of the model used to
document ENERGY STAR products benefits, EPA is in the process of enhancing its approach to
accounting for program savings. An important aspect of this is better articulation of program
goals and documentation of a market model for key product areas. (A market model is similar to
program logic but adapted to the unique aspects of market transformation programs.)


                  Milestone                                        Date
External Peer Review on ENERGY STAR                              Completed
Products Benefits Calculations
Refined Benefits Model Removing Market                          August 2010
Transformation Effects and Improving
Consistency
Enhanced Documentation of Market Model                          January 2011
Phase I Migration of Benefits Model to                           March 2011
Nationally Accepted Platform
Phase II Reassessment of Baselines for Core                      June 2011
Products




                                              27
                                                                                         11-P-0010


                                                                                     Appendix E


      Agency Comments (10/4/10) and OIG Evaluation
The second response from the Assistant Administrator was received on October 4, 2010

MEMORANDUM

SUBJECT:       Response to Evaluation Report: ENERGY STAR Needs to Define Its Primary
               Goal and Consumer Expectations – A Summary Report

FROM:          Gina McCarthy
               Assistant Administrator

TO:            Jeffrey Harris, Director
               Cross Media Issues, Office of Program Evaluation


Thank you for the opportunity to respond to the Evaluation Report: ENERGY STAR Needs to
Define Its Primary Goal and Consumer Expectations – A Summary Report (Summary Report).
We appreciate and share your interest in making the ENERGY STAR program as effective as
possible. While we are not in a position to concur with the report’s findings, as outlined below,
we concur with the proposed recommendations in the spirit of our ongoing commitment to
greater transparency and clarity around how the ENERGY STAR program operates.

The ENERGY STAR Program Has a Clearly Defined Goal and Set of Operating Principles

The goal of the ENERGY STAR products program is to identify and promote energy-efficient
products in order to reduce energy consumption, improve energy security, and reduce pollution
through voluntary labeling of products that meet the highest energy conservation standards as
authorized under the Energy Policy Act of 2005 and the Clean Air Act Section 103(g).

 OIG Response: We disagree that the Agency has a clearly defined goal and set of operating
 principles. The divergence between the initial and subsequent responses highlights the
 competing visions of the ENERGY STAR program within EPA. The Agency has yet to decide
 whether the program is intended to lead the marketplace as an exclusive program (as implied in
 the October 4, 2010, response) or follow the marketplace as an inclusive program (as stated in
 the September 13, 2010, response). More than restating the language of the Energy Policy Act
 of 2005, EPA should design, implement, and establish internal controls that assure consumers
 that they are purchasing energy-efficient products that meet the highest standards.

EPA applies a set of principles when implementing the program. These principles are consistent
with this goal by virtue of the fact that they narrow the pool of eligible, highest-conserving
products to those likely to enhance consumer acceptance and confidence in the program, thereby
increasing overall reductions in energy consumption. They include:



                                                28
                                                                                           11-P-0010


   1) Significant energy savings can be realized on a national basis
   2) Product performance can be maintained or enhanced with increased energy efficiency
   3) Purchasers will recover their investment in increased energy efficiency within a
      reasonable time
   4) Energy efficiency can be achieved with several technology options, at least one of which
      is non-proprietary.
   5) Product energy consumption and energy performance can be measured and verified with
      testing
   6) Labeling would effectively differentiate products and be visible for purchasers


Each time an ENERGY STAR performance standard is established, whether for the first time or
as part of a revision, these principles are balanced to ensure that the specified level will deliver
significant aggregate energy savings while at the same time ensuring that products are cost-
effective to the consumer and do not compromise functionality or performance. Considering
these principles, identification and promotion of products with the highest energy conservation
standards may result in setting an ENERGY STAR efficiency level that the highest 25% of
models in terms of efficiency can meet because this level offers the desired amount of selection
and availability while also promising significant energy savings, cost-effective options and no
compromise in performance.

 OIG Response: The OIG is aware of the above criteria and we reported on this process at
 length in our initial 2007 report to the Agency and again in this report. We previously
 identified the specification setting and revisions process as being unclear and lacking
 documentation. For example, although we found several instances of products with high
 market shares (some in the high 90 percentile), there was no documentation to show why the
 specifications for these products had not been revised to a more efficient standard in a timely
 manner. A key provision of the program is to ensure that consumers can identify the most
 energy-efficient products. Inconsistent application of the criteria means that the label may not
 be identifying for consumers the most energy-efficient products. Furthermore, the integrity of
 ENERGY STAR program savings or benefits becomes questionable when qualified products
 account for a high overall percentage of the market. According to EPA, several actions
 resulting from the MOU will address these historic shortcomings. However, until these
 provisions are fully implemented, their effectiveness remains unknown.

An increase in qualified product market share is an important measure of program success. As
the market is transformed, consumer confidence in the program is maintained by updating the
standards to capture additional savings. New procedures, consistent with the September 30, 2009
Memorandum of Understanding between EPA and DOE, are now in place to ensure that
ENERGY STAR standards across all product categories are reviewed and updated in a timely
manner so that they continue to represent the highest energy conservation standards.




                                                 29
                                                                                         11-P-0010


 OIG Response: The integrity of these savings or benefits becomes questionable when the
 market share of qualified products is at a high percentage. We believe that such cases illustrate
 how the ENERGY STAR program has sought to maximize the number of partners and
 qualified products at the expense of identifying products and practices that maximize energy
 efficiency. Although the program delivers to consumers the message that the ENERGY STAR
 label designates cost-effective, energy-efficient products, this may not be the case.

 We recognized both within the body of this report and in Appendix B that EPA has taken some
 steps to address the OIG’s previously reported recommendations. Included in this analysis are
 the plans outlined in the MOU, which appear to be, in many cases, a direct response to
 previous OIG recommendations. However, we cannot make any assessments regarding the
 value or effectiveness of these enhancements because they have neither been fully
 implemented nor reviewed by the OIG.


Demonstrated Commitment by Senior Officials at EPA and the Department of Energy to
Continued ENERGY STAR Program Effectiveness

On September 30, 2009, EPA and the Department of Energy (DOE) signed a new Memorandum
of Understanding (MOU) to enhance and expand federal programs that advance energy
efficiency. This new EPA/DOE partnership defines roles and responsibilities in a way that
capitalizes on the strengths of each agency and outlines a set of key improvements that will build
the value of the ENERGY STAR Program. These improvements include adding new product
categories to the program, instituting new measures to ensure that ENERGY STAR
specifications are tightened as necessary to consistently represent the highest performing
products, and enhancing the qualification and verification testing of ENERGY STAR products.
Through a DOE pilot program, government testing of ENERGY STAR qualified products has
also stepped up. In addition, we are developing a new program to promote the top tier of
products within certain categories.

Significant Enhancements to the ENERGY STAR Product Qualification and Verification
Process Have Been Finalized

Despite recent investigations, the Inspector General’s Offices at EPA and DOE and the
Government Accountability Office have found no evidence of consumer fraud relating to the
quality or performance of ENERGY STAR qualified products. EPA and the Department of
Energy have extensive procedures in place today to prevent and uncover fraud and abuse,
including a broad infrastructure of controls, audits and other measures to ensure that the
ENERGY STAR name and logo are applied properly and consistently in the marketplace.

In 2010, EPA has made dramatic changes to the way products will be qualified as part of the
ENERGY STAR Program going forward.

          In March, EPA instituted a policy across all 60 product categories that products may
           no longer be labeled by manufacturers until qualifying product information, including
           lab test reports, is submitted and approved by EPA. In addition, the Agency
           suspended the automated qualification process previously in place for certain product


                                                30
                                                                                   11-P-0010


       categories and restricted access to the ENERGY STAR certification mark to partners
       until after EPA approves a product for qualification.
      On June 30, EPA finalized the requirements accreditation bodies and laboratories
       must meet in order to receive EPA recognition for purposes of ENERGY STAR
       product testing.
      On August 23, EPA finalized the requirements certification bodies must meet to be
       recognized by the Agency as a third-party certifier of ENERGY STAR qualified
       product performance.
      EPA is currently refining the eligibility criteria and partner commitments across more
       than 60 categories to officially impose third-party certification for all products
       effective December 30.
      EPA is in the process of enhancing its approach to accounting for program savings.
       This effort will include better documentation of the market model (i.e. the market
       response assumptions), re-evaluation of baseline assumptions and migration to a
       nationally recognized, commercially available efficiency program evaluation model.

If you have any questions, please contact Beth Craig at 202 343 9312.

cc: Wade Najjum
    Brian Mclean
    Ann Bailey
    Jerri Dorsey




                                           31
                                                                              11-P-0010


                                                                            Appendix F

                                    Distribution
Office of the Administrator
Assistant Administrator for Air and Radiation
Agency Follow-up Official (the CFO)
Agency Follow-up Coordinator
General Counsel
Associate Administrator for Congressional and Intergovernmental Relations
Associate Administrator for External Affairs and Environmental Education
Audit Follow-up Coordinator, Office of Air and Radiation
Inspector General




                                             32
